f:

2£-/£/7
SUPREME COURT OF THE UNITED STATES
Matthew Earley pro se,
Petitioner,
vs.
U.S. Court of Appeals / Federal Circuit,
Respondent,

FILED
MAY 0 h 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

On petition for a Writ of Certiorari to
the United States Court of Appeals
at the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI

Matthew Earley pro se Applicant
PO Box 213
3226 Atlantic Ave
Allenwood., New Jersey
08720
Tel. (732)-528-9201
Earley.matthew@gmail.com
Application 12/925,235 Case # 2020-1816

1

I. Question to the Court

Can the “burden of proof’ regarding inherency shift if the Court (US Court
of Appeals / Federal Circuit) and Board (US Patent Trial and Appeal Board)
have not determined or demonstrated that the prior art reference and the
claimed invention are identical or substantially identical as is required in
MPEP 2112 and MPEP 2125 ?

Application 12/925,235 Case # 2020-1816

2

II. Table of Contents

I.

Question Presented

2

II.

Table of Contents

3

III.

Jurisdiction

4

IV.

Statement of the Case

5

V.

Reason for Granting the writ

12

VI.

Conclusion

13

VII. Declaration

16

VIII. Certificate of Service

17

IX. Appendix

18

Application 12/925,235 Case # 2020-1816

3

in Jurisdiction

Applicants petition for a rehearing to the U.S. Court of Appeals / Federal
Circuit was denied on February 17, 2021 (case 2020-1816 / Application
12/925,235). Applicant invokes this Courts Jurisdiction under 28 USC 1257
having timely filed this petition for writ of certiorari within ninety days of
the US Court of Appeals / FC judgment.

Application 12/925,235 Case # 2020-1816

4

IV. Statement of the Case
\

Regarding Inherency
The Board (Patent Trial and Appeal Board) introduced an undesignated new
ground of rejection (inherency) in their 11/14/2019 decision (Appx7,8,9&10
- 4. Opinion A). Preamble Limitation Issue) and at the same stated that “the
burden was on the appellant to show that Earley’s wind turbine as modified
by the suggestions in the prior art references would not inherently perform
the same function recited in claim 26”. Was it reasonable for the Board to
place the “burden” on the appellant as they introduced this new ground of
rejection?
In the Court’s decision (US Court of Appeals at the Federal Circuit) of
12/14/2020 (Appx37,38&39) they recognized the Board’s new ground of
rejection and also concluded that the “burden of Proof had shifted.
MPEP 2112 paragraph’s III and V state that a rejection under USC
102 and 103 can be made if “the prior art product seems to be
identical except that the prior art is silent as to an inherent
characteristic” and “once a reference teaching product appearing to be
substantially identical is made the basis of a rejection, and the

Application 12/925,235 Case#2020-1816

5

examiner presents evidence or reasoning to show inherency, the
burden of production shifts to the applicant”.
MPEP 2125 states that, “Drawings and pictures can anticipate claims
if they clearly show the structure which is claimed. However, the
picture must show all of the claimed structural features and how they
are put together”.

The prior art of Earley 842 (US 6,949,842 B2) and the claimed invention
are very far from being “identical” or “substantial identical”. The prior art of
Earley 842 is a patent for a “Centrifugal Weight Control (CWC) apparatus”
and the claims protect only said apparatus. The title is “Centrifugal weight
Control for Wind or Water Turbine”. The Earley 842 product is the CWC
apparatus. It is misleading for the Board to refer to this prior art as “Earley’s
wind turbine”. The turbine drawings in Earley 842 illustrate placement of
the CWC apparatus (product) on a low or intermediate speed shaft.

In the Board’s Opinion (Appx8) they state: “it possesses the authority to
require an applicant to prove that the subject matter shown in the prior art
does not possess the specified characteristic”, presenting in Figure 1
(Appx8) from Earley 842. Other than the CWC apparatus, this Figure fails to

Application 12/925,235 Case # 2020-1816

6

disclose the following structural elements found in claim 26: a rotor with
fixed pitch blades, a horizontal low speed shaft; a right angle gearbox; an
extended vertical shaft; a multi-geared transmission; a high speed output of
said multi-geared transmission; a clutch that journals to said high speed
output; an induction generator that operatively connects to said clutch. Per
MPEP 2125 the Board’s use of Figure 1 in Earley 842 is inappropriate.
0

This “authority” discussed above is established “once a reference teaching
product appearing to be substantially identical is made the basis of a
rejection, and “the Examiner presents evidence of reasoning to show
inherency, the burden of production shifts to the applicant” (MPEP 2112Requirements of Rejection Based on Inherency; Burden of Proof - Section
V)-

For contrast below is Figure 1 from the claimed invention. It includes a 36
meter fixed pitch turbine; a tower to support a vertical shaft; a 16” vertical
shaft; a CWC apparatus; a transmission; a clutch; and induction generator
rated at 2300 kW.

Application 12/925,235 Case # 2020-1816

7

Figure # 1
36 Meter Fixed Pitch Turbine
2300kW

Fixed Pitch
Level 1

Side View

I

Low speed Shaft

Transmission
Clutch
Generator
44 Meters

US Patent 6,949,842
Low speed
Shaft
Weights
CWC
Low Speed
Shaft 16"'
diameter

Jackscrews &
\ Guides

18 ft. diameter
Level 2

Too Down
View

Level 2
Level 1

Generator

Matthew Earley 732-5289201

8

Application 12/925,235 Case # 2020-1816

8

On page 8 (Appx8 - bottom) of the Board’s decision they again quote Earley
842 and state “permits the capture and transformation of energy in an
increasing flow (wind or water) while maintaining a desired operating
speed” and “permits capture and transformation of additional offered kinetic
energy” (Appx48 - Earley, col, 1.31-49). It must be noted that aU wind
turbines (induction type) permit the capture and transformation of increasing
amounts of energy in an increasing flow while maintaining a desired
operating speed. The Earley 842 patent does not disclose one quantitative
measure regarding size, diameter, height, speed, or capacity. (Appx41-49).

The distinction between the claimed invention and current technology is that
the claimed invention generates increasing amounts of energy through 24
m/s with cutout at 25 m/s and has no aerodynamic means of control,
whereas, current technology (at the time of the invention) generates
increasing amounts of energy through 14m/s with continuing operation
through 24 m/s and cutout at 25 m/s (where rotor power in winds above 15
m/s is controlled/limited with active aerodynamic solutions - typically active
pitch). The blades are feathered accordingly to maintain (but not increase)
energy capture.

Application 12/925,235 Case # 2020-1816

9

On page 9 (Appx9 - top) of the Board’s decision they say; “As Appellant
concedes, Earley’s wind turbine includes a fixed pitch rotor and a CWC
falling within claim 26’s scope”. A fixed pitch rotor is an undisclosed
feature that is implied in the Earley 842 specification. This specification
(Appx49) Earley col. Ill Ln. 11-16) does re-task a control system typically
employed for active pitch (or active stall) to control movement of CWC
weights along their jackscrews. Other aerodynamic means of control would
continue to be available, including air brakes, passive stall and yaw (yaw
only in very small systems). Earley’s 842 drawing (Figure 1) discloses only
the CWC apparatus.

On page 9 (Appx9 — Ln 4) of the Board’s decision they state; “Because
Earley’s wind turbine includes the same structural elements that the
Appellant discloses are responsible for the functional limitations recited in
claim 26’s preamble..
This statement is not correct. Structural elements in claim 26 that are not
disclosed in Earley 842 and are critical to the functional limitation include
fixed pitch rotor, induction generator, transmission, vertical shaft, and high­
speed output of said multi-geared transmission. In particular the induction
generator in claim 26 is sized for rated power at 25 m/s, which can deliver

Application 12/925,235 Case # 2020-1816

10

necessary amounts of (opposing) generator torque to control rotor power
through 24 m/s (Appx50-51).

The Earley 842 patent and the claimed invention are not identical or
substantially identical, therefore the novelty of claim 26 “for the production
of increasing amounts of energy in increasing wind speeds up to cut-out at
25 m/s” remains and the “burden of proof’ does not shift. Such a functional
limitation was not a known capability in the art at the time of the invention.

Regarding Obviousness
The Examiner simply articulates in his rejection an assembly of parts found
in Earley, Simon, and Carter to demonstrate obviousness (Appx52-55). The
Examiner does not provide any suggesting or motivating rationale. The
functional limitation in claim 26 certainly would flow from Examiner’s
articulated assembly (with properly sized components). At the time of the
invention the functional limitation “for the production of increasing amounts
of energy in increasing wind speeds up to cut-out at 25 m/s” was unknown
in the art. This same functional limitation / element is certainly not disclosed
in Earley 842. Yes, the Earley 842 product (the CWC apparatus) and implied
fixed pitch feature are found in Claim 26.

Application 12/925,235 Case # 2020-1816

11

KSR 550 U.S. at 401, l.(a) provides insight: “A patent composed of several
elements is not proved obvious merely by demonstrating that each element
was, independently, known in the art. Although common sense directs
caution as to a patent application claiming an innovation the combination of
two known devices according to their established functions, it can be
important to identify a reason that would have prompted a person of
ordinary skill in the art to combine the elements as the new invention does”.

At the time of the invention virtually all wind turbines actively avoided the
capture and transformation of additional energy content above 15 m/s. They
did so by using active aerodynamic solutions (typically / but not exclusively
active pitch). The functional limitation at issue was not recognized in the art
at the time of the invention and, therefore, cannot also serve as a reason to
combine. If not known then it cannot be obvious. One would have to
conclude that Examiner’s motivation was improperly gleaned from the
application (hindsight reconstruction).

The specification of the claimed invention states that “ employing CWC (in
lieu of pitch or stall solutions) in coni unction with induction generator

Application 12/925,235 Case # 2020-1816

12

torque, enables on demand control of necessary amounts of opposing torque
to manage rotor speed in gusty and increasing winds speeds through cut-out
.... typically 25 meters per second” (Appx56 - par 0020 ). The CWC
apparatus (in lieu of pitch or stall solutions) is not the exclusive or prime
means of controlling rotor speed through 24 m/s with cut-out at 25 m/s. The
properly sized induction generator is the prime means of control. This being
the case, should the undisclosed inherent element (fixed pitch rotor) serve as
a reason to combine the prior art elements in the way claimed in the new
invention?

On page 4 of the Courts decision they state, “The arrangement in the ‘235
application purports to use more of the available energy”. The claimed
invention does, in fact, use more of the available energy (see table 2 of the
‘235 application - Appx51).

Application 12/925,235 Case # 2020-1816

13

V. Reason for Granting the Writ

Both the Court and the Board have stated that aspects of this case are
complex and the pro se status of the applicant hasn’t likely made things any
easier. That aside, the position of the Court and the Board regarding
inherency and novelty do not meet the requirements found in MPEP 2112
and MPEP 2125.

Application 12/925,235 Case # 2020-1816

14

VI. Conclusion

For the foregoing reasons, the Applicant respectfully requests that this Court
issue a writ of certiorari to review the judgment of the U.S. Court of Appeals
at the Federal Circuit.

Dated this 17th day of May, 2021

Respectfully submitted,

a
Matthew Earley
Applicant pro se
3226 Atlantic Ave
PO Box 213
Allenwood, New Jersey 08720
Tel. (732) 528-9201
Earley .matthew@gmail. com

Application 12/925,235 Case # 2020-1816

15

VII. Declaration

I declare under penalty of perjury that the foregoing Writ Of Certiorari
is true and correct. Executed and dated this 17th day of May, 2021.

Matthew Earley

Application 12/925,235 Case # 2020-1816

16

